Andrew H. Erteschik
Partner
D: 919.783.2895
F: 919.783.1075
aerteschik@poynerspruill.com

August 30, 2019
By first-class mail and electronic filing
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543-0001
Re:

California Trout, et al. v. Hoopa Valley Tribe, et al., No. 19-257

Dear Mr. Harris:
I serve as counsel to California Trout and Trout Unlimited, petitioners in the
above-captioned case. By this letter, petitioners give blanket consent to the
submission of timely filed briefs of amici curiae in support of the petitioners, the
respondents, or neither party.
Sincerely,
/s/ Andrew H. Erteschik
AHE
cc: All counsel of record (by e-mail only)

